                                                                Issue Date
                                                                             May 21, 2012
                                                                Audit Report Number
                                                                             2012-LA-1006




TO:        Kelly Boyer, Director, Los Angeles Multifamily Housing Hub, 9DHML

           Dane Narode, Associate General Counsel for Program Enforcement, CACC



FROM:      Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region
             IX, 9DGA

SUBJECT: Amar Plaza, La Puente, CA, Was Not Administered in Accordance With HUD
          Rules and Regulations


                                   HIGHLIGHTS

 What We Audited and Why

            We reviewed the books and records of Amar Plaza (project), a U.S. Department
            of Housing Department (HUD)-insured (Section 236) multifamily cooperative
            housing project with project-based Section 8 assistance located in La Puente, CA.
            We initiated the review in response to a request from the Departmental
            Enforcement Center due to its concerns about Amar Plaza’s serious compliance
            issues, including but not limited to overdue 2009 and 2010 financial audit reports.
            The request also referenced a letter from the project’s former independent public
            accountant, indicating possible diversions of the project’s cash. Our objective
            was to determine whether the project was administered in accordance with HUD
            rules and regulations. Specifically, we wanted to determine whether project funds
            were used for eligible purposes.
What We Found


         The project was not administered in accordance with HUD rules and regulations.
         The project’s shareholders violated and defaulted on the project’s regulatory
         agreement by inappropriately approving an unauthorized encumbrance on the
         project. The project executed a deed and note for $100,000 and named a HUD-
         terminated management agent as the beneficiary of the project, which resulted in
         legal fees of at least $147,284. Regarding the note amount, $45,518 was for
         ineligible costs, and $8,465 was unsupported. The project also improperly used
         $4,921, lacked supporting documentation for $133,904, and did not maintain a
         general operating reserve or adequately document shareholder interest. Further, it
         did not adequately support its procurement activities.

What We Recommend


         We recommend that the Director of HUD’s Los Angeles Office of Multifamily
         Housing pursue administrative sanctions, as appropriate, against the project,
         applicable shareholders, and the HUD-terminated management agent for their part
         in violations of the regulatory agreement, including but not limited to taking
         possession of Amar Plaza, and require the project to (1) seek indemnification of
         $75,038 in paid legal costs and any outstanding ($72,246) or future applicable
         legal costs from the two shareholders who improperly executed the deed and note;
         (2) repay the operating account $50,439 used for ineligible expenses from non-
         Federal sources; (3) support $142,369 in unsupported expenses or repay the
         project’s operating account from non-Federal sources; (4) establish and
         implement controls and procedures to ensure compliance with the regulatory
         agreement and other HUD requirements for the use of operating funds,
         documenting shareholder interest and the funding and maintenance of the general
         operating reserve; and (5) follow its current management agent’s procurement
         procedures.

         Further, we recommended that HUD’s Associate Counsel for Program
         Enforcement pursue double damages remedies, civil money penalties, and
         administrative sanctions, as appropriate, against the project, applicable
         shareholders, and the applicable management agent(s) for their part in the
         regulatory violations cited in this report.

         For each recommendation in the body of the report without a management
         decision, please respond and provide status reports in accordance with HUD
         Handbook 2000.6, REV-4. Please furnish us copies of any correspondences or
         directives issued because of the audit.




                                          2
Auditee’s Response


           We provided the project a discussion draft report on April 13, 2012, and held an
           exit conference on April 19, 2012. The project provided written comments on
           May 7, 2012, and generally disagreed with our findings. The project’s
           management agent also provided written comments on May 11, 2012.

           The complete text of the project and management agent’s response, along with
           our evaluation of that response, can be found in appendix B of this report.




                                            3
                              TABLE OF CONTENTS

Background and Objective                                                               5

Results of Audit
        Finding 1: The Project’s Shareholders Inappropriately Approved an              6
                   Unauthorized Encumbrance on the Project

        Finding 2: The Project Improperly Used or Lacked Supporting Documentation      11
                   for the Use of $138,825 in Project Funds and Did Not Submit
                   Required Annual Financial Reports

        Finding 3: The Project Did Not Maintain a General Operating Reserve or         16
                   Adequately Document Shareholder Interest

        Finding 4: The Project Did Not Adequately Support Its Procurement Activities   18

Scope and Methodology                                                                  20

Internal Controls                                                                      22

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use                 23
   B.   Auditee Comments and OIG’s Evaluation                                          24
   C.   Criteria                                                                       33
   D.   Promissory Note: Schedule of Questioned Costs                                  41
   E.   Schedule of Questioned Costs: Sit-Down Restaurant Meals, Reimbursements,       45
        Stipends, Subscription Reimbursements, Sample Disbursements




                                              4
                      BACKGROUND AND OBJECTIVE

Amar Plaza (project) is a nonprofit cooperative Section 236 U.S. Department of Housing and
Urban Development (HUD)-insured multifamily project located in La Puente, CA, with a loan
maturity date of July 1, 2014. Section 8 assistance is provided to 42 of the 96 units. The
cooperative has been incorporated as a nonprofit cooperative housing corporation for the purpose
of acquiring, owning, and operating a housing project consisting of apartment houses, the
permanent occupancy of which will be restricted to members in the cooperative. Each member
of the project is entitled to one vote. The cooperative’s members are their own landlord. The
members pay monthly carrying charges to their cooperative in accordance with the occupancy
agreement. The cooperative corporation holds title to the property and executes a blanket
mortgage. The individual member signs no note or mortgage and has no personal obligation.

The cooperative functions through its board of directors, which is selected by and acts on behalf
of the members. The board performs important duties, such as (1) engaging a management agent
acceptable to the lender and HUD for the operation of the project; (2) establishing eligibility
standards for admission and service; (3) promulgating rules and regulations pertaining to use and
occupancy of the premises; and (4) adopting an operating budget subject to the approval of
HUD, which must reflect carrying charges adequate to meet the costs of operation. If necessary,
any board member who is not properly fulfilling his duties may be removed by a vote of the
members as prescribed in the by-laws.

There has been contention among residents and shareholders, including allegations of
impropriety, resulting in changes of board members and management agents. The project has
experienced multiple changes in management agent since 2008. HUD terminated Rampart
Properties, Inc., effective December 1, 2008. Top Notch Management was the management
agent from January 1 to August 31, 2009, followed by Tripod Management from September 1,
2009, to December 31, 2010. As of January 1, 2011, and during our audit fieldwork, Solari
Enterprises, Inc., was Amar Plaza’s HUD-approved management agent. It appears that the
project tried to solicit another management agent to replace Solari; however, it was unsuccessful.
In addition, there was a significant change in the project’s board in December 2008. The
shareholders who had been acting as the project’s board while Rampart was the management
agent could not produce records to verify their appointment. HUD, therefore, approved and
recognized another group of shareholders as board members because they were able to provide
documentation to show that they had been officially elected.

Audit Objective

Our objective was to determine whether the project was administered in accordance with HUD
rules and regulations. Specifically, we wanted to determine whether project funds were used for
eligible purposes.




                                                5
                                    RESULTS OF AUDIT

Finding 1: The Project’s Shareholders Inappropriately Approved an
           Unauthorized Encumbrance on the Project
Amar Plaza violated and defaulted on its regulatory agreement with HUD by inappropriately
approving an unauthorized encumbrance on the project. Two shareholders named the project’s
former, HUD-terminated management agent as the beneficiary of the project and executed a
promissory note for $100,000. More than 50 percent of the loan proceeds was used by the
former agent to pay for questionable expenses, including $45,518 in ineligible costs and $8,465
that was unsupported. This condition occurred because the project did not follow its regulatory
agreement with HUD. Further, the project lacked controls to properly manage the cooperative
and ensure records were maintained to confirm that the two shareholders in question had been
officially elected as board members and approved by HUD. As a result, Amar Plaza, a HUD-
insured property, was placed at significant financial and legal risk. Further, an exorbitant
amount of legal fees had been spent and incurred as a result of this action, thus reducing funds
available for reasonable operating expenses and necessary repairs.



    The Project Approved an
    Unauthorized Encumbrance

                Contrary to the regulatory agreement (appendix C) and without HUD’s approval,
                Amar Plaza executed a deed of trust and a promissory note, placed a lien on the
                property, and named its former management agent, Rampart, as the beneficiary.
                Rampart had been determined to be no longer satisfactory to HUD and was
                terminated as management agent, effective December 1, 2008. However,
                ignoring the agent’s termination by HUD, two shareholders1 executed the deed on
                February 1, 2009, and notarized it on June 19, 2009. The promissory note was in
                the amount of $100,000 with a maturity date of July 1, 2009. Executing the note
                and naming the former, HUD-terminated agent as beneficiary placed the project
                and HUD at significant financial and legal risk.

    Promissory Note Proceeds Were
    Used Inappropriately

                We identified deficiencies and irregularities in the methods by which the two
                shareholders and Rampart carried out the inappropriate deed and promissory note
                (loan). The loan amount was not deposited into the corporate account held by the


1
 Two of the shareholders that had previously acted as Amar Plaza board members and were replaced with HUD’s
approval (see Background and Objectives)


                                                      6
                 new management agent. Instead, a majority of the loan, $58,600, was used to pay
                 for the costs of the lender, Rampart, and its identity-of-interest entities on the
                 project’s behalf, including

                 Building Services, Rampart’s maintenance subsidiary;

                 Rampart’s legal invoices for its part in pursuing legal action against the project,
                 such as challenging the board recognized by HUD, although it had been
                 terminated as the management agent;

                 Loan processing costs for the Los Angeles County Recorder, postage, overnight
                 mailings, etc.;

                 Loan origination points and fees charged by Rampart; and

                 Legal and loan processing costs.

                 The payment dates for these expenses occurred from January to October 2009,
                 after Rampart was terminated as management agent.

                 The remaining amount of the loan, $40,100,2 was deposited into the project’s
                 former operating account held by Rampart, although Rampart was no longer the
                 management agent and the project’s new, HUD-approved agent had opened a new
                 operating account. Rampart had sole check-signing authority. Therefore, it was
                 essentially transferring the loan funds to itself. Portions of the funds were used to
                 pay more of Rampart’s legal costs or transferred to Rampart’s maintenance
                 subsidiary. However, it would be inappropriate for the HUD-terminated agent to
                 use project funds (the loan proceeds) to pursue legal action against the project to
                 challenge the board recognized by HUD or seek reimbursement of any fees that
                 Rampart believed may have been owed. It was also unreasonable for the two
                 shareholders to execute a “loan” from the former agent in order for that agent to
                 pay its own future legal costs for actions against the project.

                 Overall, $45,518 and $8,465 of the loan proceeds were used for ineligible and
                 unsupported costs, respectively (refer to appendix D for additional details).
                 Further, the execution of an unauthorized encumbrance on the project proved to
                 be irresponsible because it placed Amar Plaza, a HUD-insured property, at
                 significant financial and legal risk.




2
 According to documents, Rampart indicated that $41,400 was paid to the borrower directly and deposited;
however, we were only able to confirm $40,100.


                                                       7
    A Lawsuit Resulted in
    Significant Legal Costs

                    Due to the unauthorized encumbrance, the project was in an ongoing lawsuit with
                    Rampart during the course of the audit fieldwork. As the beneficiary, Rampart
                    attempted to use the promissory note to sell Amar Plaza at a public auction for
                    cash on March 8, 2010. However, a judge issued a preliminary injunction on
                    March 29, 2010, preventing Rampart from proceeding with the foreclosure sale,
                    contingent upon Amar Plaza’s maintaining a deposit of $120,000 with the Los
                    Angeles Superior Court.

                    As detailed in the table below, the project incurred at least $147,284 in legal fees
                    for years 2009 to 20113 in relation to this matter, of which $75,038 had been paid
                    and $72,246 remained outstanding. The project’s current counsel refused to
                    provide invoices or billing information for 2011, and as of the end of our audit
                    field work, the project was continuing to incur associated legal costs, so the actual
                    total cost remained unknown. Overall, the costs far exceeded the disputed
                    promissory note amount. Consequently, the operating funds used on legal fees
                    were not available for reasonable operating expenses and necessary repairs for the
                    project.

                                                     Legal costs
                                           Year                                Amount
                      2009                                                          $12,771
                      2010                                                          $32,064
                      2011                                                          $30,203
                      Subtotal (paid amount)                                        $75,038
                      Accrued expenses (not paid): forensic                         $42,677
                      accountant
                      Accrued expenses (not paid): former                                $27,950
                      legal counsel’s costs
                      HinesReporter.Com, Inc.                                             $1,619
                      Subtotal (not paid)                                                $72,246
                                                      Total                             $147,284

                    The occupancy and subscription agreements signed by the two shareholders who
                    improperly executed the deed and note indicate that they should be held
                    responsible. The occupancy agreement states, “…if a member defaults in the
                    performance of any provision in this agreement, and the Corporation [the project]
                    has obtained the services of any attorney with respect to the defaults involved,
                    then the member shall pay the costs of the suit, in addition to other costs and
                    fees.” Further, section 5 of the subscription agreement states that if a subscriber


3
    The project’s current legal counsel submitted invoices only through January 2011.


                                                           8
             defaults, any amount paid toward the subscription, the price may be retained by
             the corporation as liquidated damages.

Conclusion

             The project violated regulatory agreement requirements when it executed a deed
             of trust and a promissory note and placed a lien on the property. We attribute the
             project’s failure to comply with its regulatory agreement to a lack of controls
             necessary to properly manage the cooperative, which include maintaining records
             to confirm when shareholders are officially elected and approved by HUD. As a
             result, Amar Plaza, a HUD-insured property, was placed at significant financial
             and legal risk. In addition, a significant amount of legal fees had been incurred,
             leaving less funding available for reasonable operating expenses and necessary
             repairs of the project.

Recommendations


             We recommend that the Director of HUD’s Los Angeles Office of Multifamily
             Housing:

             1A.    Require the project’s cooperative ownership to repay the project operating
                    account $45,518 in ineligible expenses from non-Federal funds if Rampart
                    wins the lawsuit or a settlement occurs.

             1B.    Require the project’s cooperative ownership to provide support for the
                    $8,465 in unsupported costs applied to the loan proceeds or repay the
                    project from non-Federal funds if Rampart wins the lawsuit or a settlement
                    occurs.

             1C.    Require Amar Plaza to seek indemnification of $75,038 in paid legal
                    costs, $72,246 in outstanding costs, and future legal costs from the two
                    shareholders who improperly executed the deed and note and named
                    Rampart as the beneficiary and retain the two shareholders’ subscription
                    price for liquidated damages incurred for the unauthorized encumbrance
                    on the project.

             1D.    Require the project to implement procedures and controls to ensure
                    compliance with HUD requirements and all terms and conditions of the
                    regulatory agreement, including the maintenance and retention of board
                    records.

             1E.    Pursue administrative sanctions, as appropriate, against the project,
                    applicable shareholders, and the applicable management agent(s) for their
                    part in the violations of the regulatory agreement identified in this report,



                                              9
       including but not limited taking possession of Amar Plaza until it is
       determined that the project is in a position to operate in accordance with
       the terms of the regulatory agreement or until the maturity date of the note,
       July 1, 2014.

We recommend that HUD’s Associate Counsel for Program Enforcement, in
coordination with the Director of the Los Angeles Office of Multifamily Housing
and HUD’s Office of Inspector General (OIG):

1F.    Pursue double damages remedies against the responsible parties for the
       ineligible and unsupported use of the loan proceeds in violation of the
       project’s regulatory agreement.

We recommend that HUD’s Associate Counsel for Program Enforcement:

1G.    Pursue civil money penalties and administrative sanctions, as appropriate,
       against the project, applicable shareholders, and the applicable
       management agent(s) for their part in the regulatory violations cited in this
       report.




                                10
Finding 2: The Project Improperly Used or Lacked Supporting
           Documentation for the Use of $138,825 in Project Funds and
           Did Not Submit Required Annual Financial Reports
The project did not comply with the terms of its regulatory agreement when it improperly used or
lacked supporting documentation for the use of $138,825 in project operating funds and did not
submit required annual financial reports. Specifically, the project used $4,921 in project funds
for ineligible or unreasonable expenses, and it could not support the eligibility of $133,904 in
project funds. Further, it had not submitted its 2009 and 2010 required annual financial reports
to HUD. The problems occurred due to contention between shareholders and residents that
resulted in the project’s overall ineffective management and a lack of controls to ensure it
followed its regulatory agreement and all HUD rules and regulations. The project’s books and
accounts were also not kept in accordance with the Uniform System of Accounting prescribed by
HUD. As a result, $138,825 in project funds was not available for reasonable operating expenses
and necessary repairs, and HUD did not have the information necessary to assess the project’s
financial condition or compliance with program requirements.



 The Project Spent $138,825 on
 Ineligible and Unsupported
 Expenses

              The project spent $4,921 for ineligible or unreasonable and $133,904 for
              unsupported expenses (see appendix E). The ineligible and unreasonable
              expenses included

                      $1,748 in reimbursable expenses for food, beverages, and party supplies;

                      $1,320 in unreasonable expenses spent on laptops and electronic devices;

                      $1,103 for sit-down restaurant meals;

                      $600 for stipends paid to its (former) board of directors; and

                      $150 in gift certificates.

              The unsupported expenses included

                      $109,904 for project services, payroll, supplies, shareholder
                      reimbursements, etc., and

                      $24,000 to repurchase subscriptions.



                                                   11
Ineligible Reimbursement for Food, Beverages, and Party Supplies ($1,748)
The project used operating funds totaling $1,748 for ineligible food, beverages,
and party supplies (see appendix E-1). The regulatory agreement states, “…no
compensation or fee shall be paid by the Mortgagor [the project] except for
necessary services…” These expenses were not necessary to the project
operations and, consequently, were ineligible.

Unreasonable Expenses for Missing Laptops and Electronic Devices ($1,320)
The project also spent $1,320 to purchase unnecessary equipment for its board
members, including laptops, blackberries, and modems (see appendix E-4). These
items were not necessary in carrying out Amar Plaza’s activities and, therefore,
should not have been paid for with project funds. Further, the project was unable
to account for the equipment purchased with the operating funds.

Ineligible Sit-Down Restaurant Meals ($1,103)
Contrary to the regulatory agreement, the project used operating funds for
ineligible sit-down restaurant meals. Overall, $1,103 was spent on items that
were not necessary for project operations, as shown in the table below.

                     Restaurant                 Total
           Marie Callender’s                       $265
           Elephant Bar                            $166
           Michael J’s Restaurant                  $152
           Bucca Di Beppo                          $136
           Pizza Hut                               $133
           Sizzler                                  $87
           Boca Del Rio Restaurant                  $45
           Starbucks                                $36
           IHOP                                     $33
           Durango Restaurant                       $25
           Bistango Café                            $25
           Total                                 $1,103

Ineligible Stipends ($600) and Gift Certificates ($150)
The project used $600 in operating funds to pay stipends to its (former) board of
directors and spent $150 on gift certificates. According to the regulatory
agreement, no compensation should be paid to its “… officers, directors, or
stockholders…” without prior written approval from HUD. However, HUD did
not grant approval for the payment of stipends to the project’s directors. The
project also charged $150 to Home Depot Credit Services for gift certificates.
These items were not necessary in carrying out the project’s operation and,
therefore, ineligible costs charged to the project.




                                12
Lack of Supporting Documentation ($109,904)
Expenses totaling $109,904 were unsupported because the project lacked
documentation to support the disbursements. This documentation included
missing checks, timesheets, invoices, etc., to support $109,828 in expenses such
as payroll, maintenance materials, telephones services, fire extinguisher
maintenance, contract repair services, and office supplies (see appendix E-4). In
addition, former board members and a shareholder were reimbursed $76 for
gasoline without proper mileage logs (see appendix E-1). HUD Handbook
4370.2, paragraph 2-6(E), states that all disbursements from the regular operating
account “must be supported by approved invoices/bills or other supporting
documentation.” The records were missing because the previous board requested
that all project documents be kept at the project’s site with inadequate controls
over their safeguarding. The shareholders and former board members alleged that
other shareholders, including current board members, took and destroyed
financial records from the project’s office. We also found that the previous
board’s president had some records, which we requested and reviewed.

              Expense account                       Amount
 Office supplies                                        $1,756
 Security contract expense                              $2,000
 Contract services – repairs                            $2,200
 Contract service                                       $2,322
 Telephone services                                     $3,376
 Accounting-auditor fee                                 $9,500
 Miscellaneous expense                                  $9,722
 Grounds contract                                      $10,100
 Maintenance material                                  $15,016
 Legal fees                                            $26,215
 Salary expense                                        $27,621
 Reimbursements to former board members                    $76
 and a shareholder
 Total                                                  $109,904

Unsupported Subscription Repurchases ($24,000)
The project used $24,000 in operating funds to repurchase the shares of two
withdrawing members (see appendix E-3). The current board overrode the
amount calculated by the management agent and determined the repurchase
amount themselves. However, the project could not support how the amount was
determined.




                                13
The Project Did Not Submit
Required Audited Financial
Statements

             The project failed to submit the audited financial statements for 2009 and 2010 to
             HUD. According to the regulatory agreement, the project is required to submit
             audited annual financial statements, due on the 90th day following the end of each
             fiscal year. As of March 2012, the 2009 and 2010 statements were, therefore, 2
             years and 1 year overdue, respectively. Due to a lack of records, the certified
             public accountant was unable to perform the audit. Further, the annual audited
             financial reports had been submitted late for the fiscal years ending December 31,
             2006 (312 days late) and December 31, 2007 (302 days late). These conditions
             occurred because the project did not follow the regulatory agreement
             requirements and the project’s books and accounts were not kept in accordance
             with the Uniform System of Accounting prescribed by HUD. Consequently,
             without timely audited financial statements, HUD could not reasonably assess the
             financial condition of the project.


Conclusion

             The project used $138,825 in project funds for ineligible or unsupported
             expenses. The contention among residents and shareholders led to
             multiple changes in management agents and board members (see Background and
             Objective). This, in turn, resulted in overall ineffective management of the
             cooperative and a lack of controls to ensure that it complied with all HUD rules
             and regulations. The project’s books and accounts were also not kept in
             accordance with the Uniform System of Accounting prescribed by HUD. As a
             result, $138,825 in project funds was not available for reasonable operating
             expenses and necessary repairs. Further, HUD could not reasonably assess the
             financial condition of the project without timely audited financial statements.

Recommendations

             We recommend that the Director of HUD’s Los Angeles Office of Multifamily
             Housing:

             2A.    Require the project’s cooperative ownership to repay the operating
                    account the $4,921 in ineligible or unreasonable expenses from non-
                    Federal funds.

             2B.    Require the project’s cooperative ownership to support $133,904 in
                    unsupported costs or repay the project from non-Federal funds.




                                             14
2C.   Require the project to implement controls and procedures to ensure
      compliance with HUD requirements and all terms and conditions of the
      regulatory agreement, including but not limited to documenting
      disbursement expenses and submitting timely audited financial statements.




                              15
Finding 3: The Project Did Not Maintain a General Operating Reserve
           or Adequately Document Shareholder Interest
The project did not comply with the terms of its regulatory agreement when it did not maintain a
general operating reserve or adequately document shareholder interest. It did not follow HUD
rules and regulations due to a lack of procedures and controls. As a result, the project could not
provide the intended financial stability, thus placing HUD at significant financial and legal risk.


 The Project Did Not Establish a
 General Operative Reserve


               Contrary to the regulatory agreement, the project did not maintain a general
               operating reserve account. The regulatory agreement requires that a general
               operating reserve be established and maintained. The purpose of the account is to
               provide a measure of financial stability, and it may be used to finance the sale of
               memberships and provide funds for the repurchase of memberships of
               withdrawing members. The account needs to equal at least 25 percent of annual
               carrying charges. Consequently, the project should have a general operating
               reserve account with at least $127,303 ($509,210 x 25 percent). Since it did not
               have a general operating reserve account, the project had to use operating funds to
               repurchase the shares of withdrawing shareholders.

 The Project Failed To
 Document Its Shareholder
 Interest

               The project did not document its shareholder interest (membership), as detailed in
               its regulatory agreement, because it lacked procedures and controls. The
               regulatory agreement states that the sale of membership “shall be supported by a
               certification by the seller and the purchaser as to the amount of the sales price…”
               Of the 95 tenants, 89 collectively paid $387,364 in stocks toward Amar Plaza to
               have an exclusive right to occupy a dwelling unit. We could not determine the
               amount paid by the remaining six tenants because their information was either not
               available or not clearly identified in their documents. Consequently, the project
               should have documented and accounted for at least $387,364 in subscription
               funds.

 Conclusion

               The project did not maintain the required general operating reserve of at least
               $127,303 and did not adequately document shareholder interest. It did not follow


                                                16
         HUD rules and regulations due to a lack of procedures and controls. As a result,
         the project could not provide the intended financial stability, thus placing the
         project and HUD at significant financial and legal risk.

Recommendation

         We recommend that the Director of HUD’s Los Angeles Office of Multifamily
         Housing require the project to:

         3A.     Establish and implement sufficient written procedures and controls for
                 documenting shareholder interest and the funding and maintenance of the
                 general operating reserve account, which would ensure that $127,303 in
                 funds can be put to better use.




                                         17
Finding 4: The Project Did Not Adequately Support Its Procurement
           Activities
Amar Plaza procured professional services and awarded contracts without properly soliciting
bids or obtaining oral or written cost estimates and did not maintain procurement records as
required by HUD regulations. This condition occurred because the project lacked policies and
procedures for years 2009 and 2010 and due to a lack of controls, the project overrode the
current agent’s established procedures in 2011. As a result, the project paid at least $114,058 to
contractors and suppliers without adequate support to show whether the services were performed
at a reasonable cost.



 Prudent Procurement Practices
 Were Not Followed


               Contrary to HUD Handbook 4381.5 paragraph 6.50(a) and 6.50(c), the project did
               not obtain the required number of bids before awarding contracts. The project
               was unable to provide documentation showing that bids were obtained for
               services exceeding $10,000 per year, such as landscape, contract service for tiles,
               accounting-auditor fees, video surveillance, repair and maintenance, and its
               security payroll contract. Overall, the project paid $114,058 to six vendors for
               services exceeding $10,000 per year without following procurement requirements,
               as detailed in the spreadsheet below.

               Service             January–       January–       January–         Total
                                   December       December        August
                                     2009            2010          2011
      Landscape                     $28,000         $2,000        $10,504        $40,504
      Contract service for tile       $0           $10,311          $0           $10,311
      and stones
      Accounting-auditor fee          $0             $11,300         $0          $11,300
      Video surveillance            $13,345           $1,371         $0          $14,716
      Repair & maintenance          $10,821           $7,091         $0          $17,912
      Security payroll              $19,225            $90           $0          $19,315
      contract
      Total                         $71,391          $32,163      $10,504       $114,058

               Although, the current management agent had appropriate procedures in place,
               when the project was planning to hire a vender for landscape service in 2011, the
               board wanted the project’s prior landscape vendor to be recontracted. To meet the
               board’s request, the agent obtained only one verbal bid from another vendor and
               did not follow its procedures or HUD rules and regulations. The landscape


                                                18
             service exceeded the $10,000 per year threshold, thereby requiring at least three
             written solicitations.


Conclusion


             The project violated HUD procurement requirements in each of the six sample
             items tested and paid at least $114,058 without adequate support to ensure that
             services were obtained at a low and competitive cost and in accordance with HUD
             rules and regulations. This condition occurred because the project lacked policies
             and procedures for years 2009 and 2010 and due to a lack of controls, overrode
             the agent’s procedures in 2011. Although the project did not support its
             procurement activities, since the payments were made to unrelated third-party
             vendors and potential overpayments would not likely be material, we do not
             believe it is necessary for the project to demonstrate their reasonableness to HUD.
             However, we recommend that the project implement and follow its current
             management agent’s procurement procedures to ensure that all expenditures are
             performed at a reasonable cost and HUD funds are spent accordingly.


Recommendation

             We recommend that the Director of HUD’s Los Angeles Office of Multifamily
             Housing require the project to:

             4A.    Implement and follow its current management agent’s procurement
                    procedures and implement adequate controls to ensure compliance with
                    HUD requirements.




                                             19
                        SCOPE AND METHODOLOGY

We performed our onsite audit work primarily at the project’s management agent’s office,
located in Orange, CA, between August 2011 and February 2012. Our audit generally covered
January 1, 2009, through July 31, 2011. We expanded our scope as necessary.

To accomplish our audit objective, we

       Reviewed applicable HUD regulations, including Financial Operations and Accounting
       Procedures, HUD Handbook 4370.2, and the Management Agent Handbook, 4381.5.

       Reviewed the regulatory agreement and the agent’s internal policies and procedures.

       Interviewed the project’s management staff and HUD employees.

       Reviewed the project’s accounting records including general ledgers, invoices, and
       supporting documentation related to the disbursements selected for review. Since the
       project had three different management agents during our scope of January 1, 2009, to
       July 31, 2011, we obtained three different nonstatistical samples from each of the three
       management agents: Solari Enterprises, Inc., Tripod Management, and Top Notch
       Management.

           1. Solari Enterprises, Inc.
                  The total amount of expenditures between January 1 and July 31, 2011,
                      was just under $275,000. We selected five expense accounts between
                      January 1 and July 31, 2011, that we considered to be higher risk and
                      selected subaccounts and invoices with the highest disbursement amounts
                      totaling $34,357 (more than 12 percent of all expenditures).

           2. Tripod Management
                   The total amount of expenditures between July 2009 and December 2010
                     was just over $1.3 million. Of the 78 subexpense accounts, we selected
                     the 24 that we considered to be higher risk. We then selected at least two
                     invoices with the highest disbursement amount for each of the 24 accounts
                     totaling $465,147 (more than 35 percent of all expenditures).

           3. Top Notch Management
                  The total amount of expenditures between January 1 and August 2009,
                    was just under $250,000. Of the 28 expense accounts, we selected the 14
                    expense accounts that we considered to be higher risk and selected at least
                    two invoices with the highest disbursement amount from each totaling
                    $39,531 (more than 15 percent of all expenditures).

We did not assess the reliability of computer-processed data because we did not use or rely on
that type of data; therefore, the assessment was not necessary.


                                               20
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




                                               21
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,

       Reliability of financial reporting, and

       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                      Policies and procedures that management has implemented to ensure that
                      project funds are expended in accordance with HUD rules and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonable opportunity to prevent, detect, or correct
               (1) impairments to effectiveness or efficiency of operations, (2) misstatement in
               financial or performance information, or (3) violation of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

                      The project lacked sufficient policies, procedures, and controls to ensure
                      that project funds were expended in compliance with HUD rules and
                      regulations (findings 1, 2, 3, and 4).


                                                 22
                                          APPENDIXES

Appendix A

                  SCHEDULE OF QUESTIONED COSTS
                 AND FUNDS TO BE PUT TO BETTER USE

     Recommendation       Ineligible 1/    Unreasonable or     Unsupported 3/     Funds to be put
         number                            Unnecessary 2/                         to better use 4/
                 1A             $45,518
                 1B                                                     $8,465
                 1C                                                                       147,284
                 2A              $3,601               $1,320
                 2B                                                  $133,904
                 3A                                                                      $127,303
               Total            $49,119               $1,320         $142,369            $274,587

1/      Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
        that the auditor believes are not allowable by law; contract; or Federal, State, or local
        policies or regulations. These ineligible and unreasonable costs consist of project
        operating funds that were not used for reasonable operating expenses or necessary
        repairs.

2/      Unreasonable or unnecessary costs are those costs not generally recognized as ordinary,
        prudent, or necessary within established practices. Unreasonable costs exceed the costs
        that would be incurred by a prudent person in conducting a competitive business.

3/      Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
        or activity when we cannot determine eligibility at the time of the audit. Unsupported
        costs require a decision by HUD program officials. This decision, in addition to
        obtaining supporting documentation, might involve a legal interpretation or clarification
        of departmental policies and procedures.

4/      Recommendations that funds be put to better use are estimates of amounts that could be
        used more efficiently if an OIG recommendation is implemented. These amounts include
        reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
        implementing recommended improvements, avoidance of unnecessary expenditures
        noted in preaward reviews, and any other savings that are specifically identified. The
        $147,284 represents project legal expenditures that should be recovered from the
        appropriate parties, resulting in savings to the HUD-insured project. The $127,303 in
        funds put to better use represents funds that should have been maintained in the project’s
        general operating reserve for the purpose of financial stability and used to finance the sale
        of memberships and provide funds for the repurchase of memberships of withdrawing
        members.


                                                 23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                   Auditee Comments




Comment 1




Comment 2




Comment 3




                   * Names redacted for privacy reasons.


                                           24
Comment 3




Comment 4




Comment 5




Comment 6

Comment 1




            25
Comment 7




Comment 8




Comment 9




Comment 10




             26
Comment 1

Comment 11

Comment 3




Comment 11




             27
Comment 5




Comment 8




            28
Comment 9




Comment 11




             29
                         OIG Evaluation of Auditee Comments

Comment 1   The current Board of Directors indicated that it does not have access to all of the
            information regarding financial statements and bank accounts that the OIG
            reviewed. As cited in our report, records were missing because the previous
            board requested that all project documents be kept at the project’s site but had
            inadequate controls over its safeguarding. In addition, the project ownership is
            ultimately responsible for ensuring that its management agent(s) maintain
            adequate documentation in accordance with HUD regulations. Since the project
            did not have all its books, contracts, records, documents, and papers available for
            examination, we had to gather the financial records from various sources in order
            to conduct our review, including

                   The former board’s president;

                   The former management agent, Rampart Properties;

                   Solari Enterprises, Inc.; and

                   The project’s on-site storage room.

            The documents we obtained from Solari or the project’s on-site storage room
            were left at the agent’s site. In addition, the project’s current legal counsel had
            the majority of the financial information we obtained from Rampart Properties;
            therefore, it was already available to the board. The current board was made
            aware that the former board president had information; however, we do not know
            if the board made any effort to contact this person. The board made no prior
            request for us to provide them with additional documentation. Given the board’s
            response, we have forwarded copies of information obtained from the former
            board president to the project’s current management agent.

Comment 2   We disagree. The board stated that the project drastically improved its spending
            and financial situation in 2011. However, the board withheld crucial information
            from its management agent and HUD. For instance, the board did not
            acknowledge until the exit conference that it never did execute an agreement with
            BASTA, its legal counsel. Further, BASTA refused to cooperate and provide
            invoices or billing information for year 2011 to the OIG for review. As a result,
            the spending for year 2011 did not reflect actual spending. By not executing an
            agreement, the board placed a HUD-insured project and HUD at a significant
            financial and legal risk.

            Further, the project states that it was the prior management agent abdicating its
            responsibility to act as the management company; thus, the present board did not
            have the help of a management company to address Amar Plaza’s problems.
            However, through interviews, OIG was informed that the prior management agent



                                             30
            and board were both terminated due to the contention between shareholders and
            residents, including allegations of impropriety (See background and objectives).

Comment 3   The board states that it looks forward to HUD’s participation in the present
            lawsuit; however, we did not recommend HUD’s involvement in the current
            lawsuit. Our recommendations 1F and 1G were for HUD to pursue separate
            actions, as appropriate.

            The board believes that the case will end quickly and favorably for Amar Plaza;
            thus, legal expenses will be paid back by Rampart Properties and legal expenses
            will cease. However, there is no assurance Rampart will be required to pay back
            the project’s legal expenses as part of any judgment. As such, the project may
            ultimately be liable for the legal expenses. The board admitted at the exit
            conference that an agreement was never executed with its current legal counsel.
            In addition, the project’s legal counsel has refused to provide invoices and billing
            information for year 2011. The Board also did not appear to know what rate its
            legal counsel was actually charging.

Comment 4   The project states that Rampart Properties demanded nearly $200,000 to settle the
            case. However, we have received nothing to confirm this. We also do not know
            the total legal cost incurred to date, as the project’s legal counsel has still not
            provided the requested invoices and there is no agreement.

Comment 5   We were not previously informed or aware of any attempts to have the
            shareholder evicted, and no documentation has been provided to us on this matter.

Comment 6   To clarify, the OIG (not HUD) obtained financial records from the former board
            president.

Comment 7   We reviewed the project, Amar Plaza for the period of 2009 to July 2011, and not
            the current board of directors. Regardless of who the board members were, the
            project is accountable for inappropriate activity in accordance with the regulatory
            agreement executed with HUD.

Comment 8   HUD Handbook 4381.5 section 6.50(a) requires “…written cost estimates from at
            least three contractors or suppliers for any contract, ongoing supply or service
            which is expected to exceed $10,000 per year.” Per the agent’s May 11, 2012,
            response to the draft and the project’s comments, the project’s board instructed its
            agent to hire the current landscape vendor, even after the agent explained the
            procurement process. Further, the board then increased its monthly payment to
            the landscape vendor.

Comment 9   We disagree with the board’s response. The board did not provide documentation
            supporting how the amount ($24,000) was determined, and no documentation was
            provided with the project’s response to the audit report. The current management




                                             31
              agent had calculated the amount for the subscription reimbursements far less than
              the amount the board decided to pay its withdrawing members.

Comment 10 Our review was not based on the average costs the board and its management
           agent spent each month, but whether the expenses were allowable. We identified
           $50,439 in ineligible/unreasonable expenses, $142,369 in unsupported costs, and
           $274,587 in funds to be put to better use during the audit period. Further, as
           discussed in comment number 2, the board withheld crucial information from its
           management agent, HUD, and the OIG. It revealed at the exit conference that an
           agreement was never executed with BASTA. As a result, the spending for year
           2011 is not reflective of its actual spending.

Comment 11 We do not believe that the project is on the right track towards fixing its
           problems. In addition to our findings, there has been constant contention among
           residents and shareholders, including allegations of impropriety, which have
           resulted in changes of board members and management agents. We determined
           that the project lacked overall effective management and controls to ensure that it
           followed its regulatory agreement and all HUD rules and regulations. The project
           (including its present board) has also not provided financial statements to HUD
           for years 2009 and 2010. Consequently, we recommended under 1E that HUD
           pursue appropriate administrative sanctions, including temporarily taking over to
           the project, to protect both HUD’s interest and the interest of the project
           shareholders and tenants.




                                              32
Appendix C

                                          CRITERIA
Regulatory Agreement

Section 3. Commencing with occupancy, the Mortgagor shall establish and maintain a general
operating reserve by allocation and payment thereto monthly of a sum equivalent to not less than
3 percent of the monthly amount otherwise chargeable to the members pursuant to their
occupancy agreements. Upon accrual in said General Operating Reserve Account, of an amount
equal to 15 percent of the current annual amount otherwise chargeable to the members pursuant
to their Occupancy Agreements, the rate of such monthly allocations may, by appropriate action
of the mortgagor, be reduced from 3 percent to 2 percent provided, however, that in the event
withdrawals from such account reduce it below said 15 percent accrual, the rate of such monthly
deposits shall immediately be restored to 3 percent; at any time thereafter upon accrual in said
General Operating Reserve Account of an amount equal to 25 percent of the current annual
amount otherwise chargeable to the members pursuant to the Occupancy Agreements, such
monthly deposits may, by appropriate action of the mortgagor, be discontinued an no further
deposits need to be made into such General Operating Reserve so long as said 25 percent level is
maintained and provided, further, that upon any reduction of such reserve below said 25 percent
level, monthly deposits shall forthwith be made at the 3 percent rate until the 25 percent level is
restored. (This reserve shall remain in a special account and may be in the form of cash deposit
or invested in obligations of, or full guaranteed as to principal by, the United States of America...

Section 5. The Mortgagor shall not without prior approval of the Commissioner, given in
writing,
(a) sell, assign, transfer, dispose of or encumber any real or personal property, except as
specifically permitted by the terms of the Mortgage;
(j) encumber or dispose of in any manner whatsoever any funds derived from the proceeds of its
insured Mortgage in excess of sums required to pay the applicable statutory percentage of the
actual cost of legitimate obligations incurred...

Section 6. No compensation or fee shall be paid by the Mortgagor except for necessary services
and except at such rate as is fair and reasonable in the locality for similar services, nor, except
with the prior written approval of the Commissioner, shall any compensation be paid by the
Mortgagor to its officers, directors, or stockholders, or to any person, or corporation, for
supervisory or managerial services, nor shall any compensation be paid by the Corporation to
any employee in excess of $6,000 per annum, except with such prior written approval...

Section 8. The Mortgagor, its property, equipment, buildings, plans, office, apparatus, devices,
books, contracts, records, documents and papers shall be subject to inspection and examination
by the Commissioner or his duly authorized agent at all reasonable times.

Section 9. The books and accounts of the Mortgagor shall be kept in accordance with the
Uniform System of Accounting prescribed by the Commissioner.



                                                 33
Section 13. The Mortgagor agrees that any membership shall be sold by the Mortgagor or by a
member only in the manner and for the amount as provided in the By-Laws, and that to this end a
sale by a member shall be supported by a certificate by the seller and the purchaser as to the
amount of the sales price not in excess of that permitted by the By-Laws.

Section 17. Upon a violation of any of the above provisions of this Agreement by the
Mortgagor, the Commissioner may give written notice, thereof, to the Mortgagor, by registered
or certified mail, addressed to the addressees stated in this Agreement. If such violation is not
corrected to the satisfaction of the Commissioner within 15 days after the date such notice is
mailed, or within such additional period of time as is set forth in the notice, or where the
Mortgagor proceeds immediately and diligently, within such further time as the Commissioner
determines is necessary to correct the violation, without further notice the Commissioner may
declare a default under this Agreement and upon such default the Commissioner may:

(a) (i) If the Commissioner holds the note - declare the whole of said indebtedness immediately
due and payable and then proceed with the foreclosure of the mortgage;
(ii) If said note is not held by the Commissioner - notify the holder of the note of such default,
and the holder, with the prior written consent of the Commissioner, may declare the whole
indebtedness due, and therefore upon proceed with foreclosure of the mortgage, or assign the
note and mortgage to the Commissioner as provided in the Regulations;

(b) Collect all rents and charges in connection with the operation and use such collections to pay
the Mortgagor’s obligations under this Agreement and under the note and mortgage and the
necessary expenses of preserving the property and operating the project;

(c) Take the possession of the mortgaged property, bring any action necessary to enforce any
rights of the Mortgagor of the project, and any rights of the Commissioner, arising by reason of
the Agreement, and operate the project in accordance with the terms of this Agreement until such
time as the Commissioner in his discretion determines that the Mortgagor is again in a position to
operate the project in accordance with the terms of this agreement and in compliance with the
requirements of the note and mortgage;

(d) Apply to any court, State or Federal, for specific performance of this Agreement, for an
injunction against any violation of the Agreement, for the appointment of a receiver to take over
and operate the project in accordance with the terms of the Agreement, or for such other relief as
may be appropriate, since the injury to the Commissioner arising from a default under any of the
terms of this Agreement would be irreparable and the amount of damage would be difficult to
ascertain.

(e) Terminate the interest reduction payments to the mortgagee.

Section 18. The covenants and agreements herein set out shall be deemed to run with the land
herein described so long as there is a mortgage on said property insured or owned by the
Commissioner and to bind any future purchasers of the real property or any part thereof.




                                                34
Occupancy Agreement

Article 1. Monthly Carrying Charges.
Commencing at the time indicated in Article 2 hereof, the Member agrees to pay to the
Corporation a monthly sum referred to herein as “Carrying Charges,” equal to one-twelfth of the
member’s proportionate share of the sum required by the Corporation, as estimated by its Board
of Directors to meet its annual expenses, including but not limited to the following items:
(a) The cost of all operating expenses of the project and service furnished...

Article 13. Member to Comply with All Corporate Regulations.
The Member covenants that they will preserve and promote the cooperative ownership principles
on which the Corporation has been founded, abide by the Charter, By-Laws, rules and
regulations of the Corporation and any amendments thereto, and by his acts of cooperation with
its other members bring about for himself and his co-members a high standard in home and
community conditions. The Corporation agrees to make its rules and regulations known to the
Member by delivery of same to him or by promulgating them in such other manner as to
constitute adequate notice.

Article 17. Late Charges and Other Costs In Case Of Default
If a Member defaults in making a payment of Carrying Charges or in the performance or
observance of any provision of this Agreement, and the Corporation has obtained the services of
any attorney with respect to the defaults involved, the Member covenants and agrees to pay to
the Corporation any costs or fees involved, including reasonable attorney’s fees, notwithstanding
the fact that a suit has not yet been instituted. In case a suite is instituted, the Member shall also
pay the costs of the suit, in addition to other aforesaid costs and fees.

By-Laws

Article III
Membership

Section 3. Subscription Funds. All subscription funds (except funds required for credit reports)
received from applicants prior to the endorsement of the mortgage note by the Federal Housing
Administration (hereinafter sometimes referred to as the Administration) shall be deposited
promptly without deduction in a special account or accounts of the Corporation as escrowee or
trustee for the Subscribers to Membership, which monies shall not be corporate funds, but shall
be held solely for the benefit of the Subscribers until transferred to the account of the
Corporation as hereinafter provided. Such special account or accounts shall be established with
Title Insurance and Trust Company… Such funds shall be subject to withdrawal or transfer to
the account of the Corporation or disbursed in a manner directed by the Corporation only upon
certification by the President and Secretary of the Corporation to the above-named institution or
institutions that:
         A. The Subscription Agreement of a named applicant has been terminated pursuant to its
             terms and such withdrawal is required to repay the amount paid by him under such
             agreement…




                                                 35
Section 5 Membership Certificates. Each membership certificate shall state that the Corporation
is organized under the laws of the State of California, the name of the registered holder of the
membership represented thereby, the Corporation lien rights as against such membership as set
forth in this Article.....

Section 6 Lost Certificates. The Board of Directors may direct a new certificate or certificates to
be issued in place of any certificate or certificates previously issued by the Corporation and
alleged to have been destroyed or lost...

Section 8
Transfer of Membership. Except as provided herein, membership shall not be transferable and,
in any event, no transfer of membership shall be made upon the books of the Corporation within
ten (10) days next preceding the annual meeting of the members.

B. Option of Corporation to Purchase. If the member desires to leave the project, he shall notify
the Corporation in writing of such intention, and the Corporation shall have an option for a
period of 30 days thereafter, but not the obligation, to purchase the membership, together with all
of the member’s rights with respect to the dwelling unit, at an amount to be determined by the
corporation as representing the transfer value thereof, less any amounts due by the member to the
Corporation under the Occupancy Agreement, and less the cost or estimated cost of all deferred
maintenance, including painting, redecorating, floor finishing and such repairs and replacements
as are deemed necessary by the Corporation to place the dwelling unit in suitable condition for
another occupant. The purchase by the Corporation of the membership will immediately
terminate the member’s rights and the member shall forthwith vacate the premises.

D. Transfer Value. Whenever the Board of Directors elects to purchase a membership, the term
“transfer value” shall mean the sum of the following:
        1. The consideration (i.e., down payment) paid for the membership by the first occupant
        of the unit involved as shown on the books of the Corporation;
        2. The value, as determined by the Directors, of any improvements installed at the
        expense of the member with the prior approval of the Directors, under a valuation
        formula which does not provide for reimbursement in an amount in excess of the typical
        initial cost of the improvements...

Section 9. Termination of Membership for Cause. In the event there is a default by the member
under the Occupancy Agreement, and the Corporation has notified the member thereof, the
member shall be required to deliver promptly to the Corporation his membership certificate,
endorsed in such a manner as may be required by the Corporation. The Corporation shall
thereupon, at its election, either (1) repurchase said membership at its transfer value (as
hereinabove defined) or the amount the retiring member originally paid for the acquisition of his
membership certificate, which is the lesser, or (2) proceed with reasonable diligence to effect a
sale of the membership to a purchaser and at sales price acceptable to the Corporation. The
retiring member shall be entitled to receive the amount so determined, less the following
amounts (the determination of such amounts by the Corporation to be conclusive):

A. Any amounts due to the Corporation from the member under the Occupancy Agreement;



                                                36
B. The cost or estimated cost of all deferred maintenance, including painting, redecorating, floor
finishing and such repairs and replacements as are deemed necessary by the Corporation to place
the dwelling unit in suitable condition for another occupant;

C. Legal and other expenses incurred by the Corporation in connection with the default of such
member and the resale of his membership. In the even the retiring member for any reason should
fail for a period of 10 days after demand to deliver to the Corporation his endorsed membership
certificate, said member-ship certificate shall forthwith be deemed to be cancelled and may be
reissued by the Corporation to the new purchaser.

Article V
Directors
Section 6. Compensation. No compensation shall be paid to Directors for their services as
Directors. No remuneration shall be paid to a Director for services performed by him for the
Corporation in any other capacity, unless a resolution authorizing such remuneration shall have
been unanimously adopted by the Board of Directors before the services are undertaken. No
remuneration or compensation shall in any case be paid to a Director without the approval of the
Administration. A Director may not be an employee of the Corporation.

Section 14. Safeguarding Subscription Funds. It shall be the duty of the Board of Directors to
see to it that all sums received in connection with membership subscriptions prior to the closing
of the mortgage transaction covering the housing project of the Corporation are deposited and
withdrawn only in the manner provided for....

Article VII FHA Controls

Section 1. Rights of Federal Housing Administration. The management, operation and control
of the affairs of the Corporation shall be subject to the rights, powers and privileges of the
Federal Housing Administration pursuant to the Regulatory Agreement between the Corporation
and the Federal Housing Administration pursuant to the Regulatory Agreement between the
Corporation and the Federal Housing Administration. The Corporation is bound by the
provisions of the Regulatory Agreement which is a condition precedent to the insurance of a
mortgage of the Corporation on the project.

Article X Fiscal management

Section 2. Books and Accounts. Books and accounts of the Corporation shall be kept under the
direction of the Treasurer and in accordance with the Uniform System of Accounts prescribed by
the FHA Commissioner...




                                                37
Section 3. Auditing. At the closing of each fiscal year, the books and records of the Corporation
shall be audited by a Certified Public Accountant or other person acceptable to the
Administration, whose report will be prepared and certified in accordance with the requirements
of the Administration...

Section 4. Inspection of Books. Financial reports such as are required to be furnished to the
Administration and the membership records of the Corporation shall be available at the principal
office of the Corporation for inspection at reasonable times by the members.

Subscription Agreement

Section 5. Cancellation Rights

(a) By Corporation: The Corporation reserves the right, at any time before it has notified the
Subscriber of his acceptability for membership, for reasons deemed, sufficient by the
Corporation, to return the amount paid by the Subscriber under this Agreement, or in the event
the Subscriber shall have died prior to becoming a member the Corporation reserves the right to
return same to Subscriber’s estate or legal representative, and thereupon all rights of the
Subscriber shall cease and terminate without further liability on the part of the Corporation.

If the Subscriber shall default in any of the obligations called for in this Agreement, and such
default shall continue for fifteen (15) days after notice sent by registered mail by the Corporation
to the Subscriber at the address given below, then forthwith at the, option of the Corporation, the
Subscriber shall lose any and all rights under this Agreement, and any amount paid toward the
subscription price may be retained by the Corporation as liquidated damages, or may at the
option of the Corporation be returned less the Subscriber’s proportionate share of expenses
incurred by the Corporation, such proportionate share of expenses to be determined solely by the
Corporation. The Corporation may, at its option, release the obligations of the Subscriber under
this Agreement in the event the Subscriber shall secure an assignee of this Agreement who has
assumed the obligations herein contained and is satisfactory to the Corporation and the Federal
Housing Administration (FHA). This Agreement is not otherwise assignable.

HUD Handbook 4370.2, Financial Operations and Accounting Procedures (Insured
Multifamily Projects), Chapter 2

Cash Management Controls
B. Disbursement Controls
1. A request for a check must have supporting documentation (i.e., invoice itemizing amount
requested with an authorized signature) in order for approval to be obtained to make the
disbursement.
2. Checks must be approved by an individual authorized to approve checks.
3. The authorized check signer shall review supporting documentation before signing the
check...




                                                38
2-6 Regular Operating Account
E. All disbursements from the Regular Operating Account (including checks, wire transfers and
computer generated disbursements) must be supported by approved invoices/bills or other
supporting documentation. The request for project funds should only be used to make mortgage
payments, make required deposits to the Reserve for Replacements, pay reasonable expenses
necessary for the operation and maintenance of the project, pay distributions of surplus cash
permitted and repay owner advances authorized by HUD.

HUD Handbook 4350.1, REV-1, Chapter 26

26-1 Introduction. The establishment and maintenance of a general operating reserve (GOR)
fund is a program requirement applicable to cooperative housing projects insured by HUD.

26-1(a). Purpose of the general operating reserve account: this accumulative reserve is intended
to provide a measure of financial stability and may be used to finance the sale of memberships,
to meet deficiencies arising from time to time as a result of delinquent payment by individual
cooperators and other contingencies, and to provide funds for repurchase of membership of
withdrawing members, etc.

26-1(b). The requirement for GOR funding for cooperative housing projects is separate and
apart from other project-related financial obligations, including reserve fund for replacements...

26-4 Funding Requirement. The Regulatory Agreement requires that, commencing with
occupancy, monthly deposits must be made to the general operating reserve, in an amount equal
to not less than 3 percent of the monthly amount otherwise chargeable to the regular members
pursuant to their occupancy agreements. When the GOR account reaches 15 percent of the
annual carrying charges, the monthly accrual rate may be reduced to 2 percent (provided that
monthly deposits will be immediately restored to 3 percent in the even withdrawals from the
account reduce it below the 15 percent accrual); and when the GOR account equals 25 percent of
annual carrying charges, such monthly accruals may be discontinued until the account is reduced
below 25 percent.

26-6 Account Maintenance and Investment. The general operating reserve will be maintained in
a special account and may be in the form of a cash deposit or invested in the same manner as
replacement reserve funds, except that the GOR account will be under the control of the
mortgagor...

HUD Handbook 4381.5, The Management Agent Handbook

6.50. Contracting Guidelines
6.50 a. When an owner/agent is contracting for goods or services involving project income, an
agent is expected to solicit written cost estimates from at least three contractors or suppliers for
any contract, ongoing supply or service which is expected to exceed $10,000 per year or the
threshold established by the HUD Area Office with jurisdiction over the project.
6.50 c. Documentation of all bids should be retained as a part of the project records for three
years following the completion of the work.



                                                 39
24 CFR (Code of Federal Regulations) 5.801, Uniform Financial Reporting Standards

(a) Applicability. This subpart H implements uniform financial reporting standards for…
Section (3) Owners of housing assisted under any Section 8 project-based housing assistance
payments program…
Section (4) Owners of multifamily projects receiving direct or indirect assistance from HUD, or
with mortgages insured, coinsured, or held by HUD, including but not limited to housing under
the following HUD programs…
        (xii) Section 236 of the NHA [National Housing Act] (Rental and Cooperative Housing
        for Lower Income Families);
(b) Submission of financial information…
(2) For entities listed in paragraphs (a)(3) and (4) of this section, the financial information to be
submitted to HUD in accordance with paragraph (b) of this section, must be submitted to HUD
annually, no later than 90 days after the end of the fiscal year of the reporting period, and as
otherwise provided by law.




                                                  40
Appendix D

PROMISSIORY NOTE: SCHEDULE OF QUESTIONED COSTS

Table D-1: Part 1 of disbursements
                       Description                       Ineligible         Unsupported
 1   L.A. Printing Center                                                      $158
 2   Franchise Tax Board                                                        $20
     Rampart Properties, Inc., final sums due
 3                                                                            $3,537
     12/12/08
 5   Rampart’s Legal Counsel                             $27,771
 6   Rampart’s Legal Counsel                               $600
 7   Loan processing costs to Rampart                      $835
 8   Rampart Properties, Inc., loan processing fees       $5,000
 9   Legal and loan processing fees                       $2,410
                            Total                        $36,615              $3,715
Note: The $41,100 Rampart claimed to have deposited into the project’s account was reviewed
under table D-2.




                                                41
Table D-2: Part 2 of disbursements
        Description          Amount     Ineligible   Unsupported                                        Auditor's notes

Confirmed funds-deposits
Beginning balance             $1,876
Transfer from reserve          $62
LOMOD Section 8               $2,942
Rampart 1/21/09              $20,000                               1st of 3 Rampart deposits totaling $40,100 (20,000 + 6,100 + 14,000)
Rampart 2/24/09               $6,100                               2nd of 3 Rampart deposits totaling $40,100 (20,000 + 6,100 + 14,000)
Building Services 2/27/09     $400
Rampart 3/9/09               $14,000                               3rd of 3 Rampart deposits totaling $40,100 (20,000 + 6,100 + 14,000)
Total                         $45,380
Total expenditures-transfers out
Transfer to Building
                               $2,730                  $2,730      No supporting documentation as to why $2,730 was transferred to Building Services.
Services
Independent public
                              $32,960                              Eligible costs for 2007 and 2008 audited financial statements.
accountant
                                                                   This bank account should have been closed since Rampart was no longer the project’s
                                                                   agent. Account balance should have been forwarded to the project, not retained by
Misc. items                   $261        $194                     Rampart. Therefore, fees incurred by Rampart to keep the account open were ineligible
                                                                   ($193.60).
                                                                   Remaining amount of $67.25 was an eligible cost for the project’s gas company bill.
                                                                   This bank account should have been closed since Rampart was no longer the project’s
Rampart Properties             $42         $42                     agent. Any account balances should have been forwarded to the project, not retained by
                                                                   Rampart. Therefore, fees incurred by Rampart to keep the account open were ineligible.

                                                                   Rampart Properties was terminated as a management agent by HUD, effective 12/1/08.
 Rampart’s legal counsel      $520        $520
                                                                   These costs were incurred after its termination and paid on 2/19/09.
                                                                   Rampart was terminated as management agent, effective 12/1/08. However, the 2/6/09
                                                                   invoices were paid on 2/19/09. The services were obtained after the agent’s
                                                                   termination. Rampart had no reasonable justification to use project funds in pursuit of
 Rampart’s legal counsel      $5,951     $5,951
                                                                   legal action on behalf of anyone at the project, nor would it be reasonable for the project
                                                                   to pay Rampart’s cost to pursue legal action against the project. Therefore, the costs
                                                                   were not for necessary services as required by the regulatory agreement.




                                                                         42
          Description             Amount      Ineligible   Unsupported                                      Auditor's Notes

                                                                         No supporting documentation was available to show where the $2,020 was transferred
Transfer to operating              $2,020                    $2,020      to or for what purpose. There was nothing showing that the amount of $2,020 was
                                                                         transferred to Amar’s operating account.
                                                                         Unable to confirm that the cashier’s check was deposited into Amar’s operating
Cashier’s check                     $897           $897
                                                                         account.
Total                             $45,3804     $7,6034       $4,750
Unconfirmed deposit of
                                               $1,300                    No deposit of $1,300 could be confirmed (see note 1 above).
$1,300
Total                                          $8,903        $4,750




4
    Calculation differences are due to rounding.


                                                                              43
Table D-3: Summary

                            Description
                                                             Ineligible         Unsupported
    L.A. Printing Center                                                                      $158
    Franchise Tax Board                                                                        $20
    Rampart Properties, Inc., final sums due 12/12/08                                     $3,537
    Rampart’s legal counsel                                        $27,771
    Rampart’s legal counsel                                           $600
    Loan processing costs to Rampart                                  $835
    Rampart Properties, Inc., loan processing fees                  $5,000
    Legal and loan processing fees                                  $2,410
    Transfer to Building Services                                                         $2,730
    Misc. items                                                       $194
    Rampart Properties                                                    $42
    Rampart’s legal counsel                                           $520
    Rampart’s legal counsel                                         $5,951
    Transfer to operating                                                                 $2,020
    Cashier’s check                                                   $897
    Unconfirmed deposit of $1,300                                   $1,300
    Total                                                         $45,5185                $8,465




5
    Calculation differences are due to rounding.


                                                        44
  Appendix E

          SCHEDULE OF QUESTIONED COSTS: SIT-DOWN
        RESTAURANT MEALS, REIMBURSEMENTS, STIPENDS,
           SUBSCRIPTION REIMBURSEMENTS, SAMPLE
                      DISBURSEMENTS

Table E-1: Reimbursements
 Expense account       Date     Check no.    Ineligible   Unsupported                     Notes
 Misc. admin.                                                           Applebees - board of directors’ dinner
                      4/7/10      3111          $50
 expenses (specify)                                                     meeting with legal counsel
                                                                        Sodas - Amar market for HUD site visit
                      2/3/10      3077          $56
                                                                        2/24/10
                      6/12/09     1161          $71                     Food for meeting expense
                      6/12/09     1160                         $19      Reimbursement for gas expense
                                                                        Refreshments at Costco such as water,
                      2/24/10     3076          $80
                                                                        coffee, muffins, etc.
                      4/17/09     1130         $327                     Food items from Costco
                                                                        1) $13.15 board lunch after court 3/3/10
                                                                        2) $10.71 - breakfast before HUD meeting
                      3/3/10      3088          $24            $10
                                                                        2/5/10
                                                                        3) $10 – No support
                                                                        Receipt indicates party supplies for items
 Contract service-
                      9/22/09     1024          $37                     purchased at Walmart such as cookies,
 repairs
                                                                        water, tea, sodas, etc.
                                                                        Receipt: lunch at Michael J’s after a
 Misc. admin. exp.                                                      meeting at Congresswoman office
 ($49.53)                                                               ($49.53);
 & vehicle            5/20/10     3148          $50            $47
 allowance (gas,                                                        Gas reimbursement for 4/21/10; $42.68
 parking $46.68)                                                        receipt but reimbursed $46.68 with no
                                                                        supporting mileage information
 Misc. admin.                                                           Reimbursement for court case Amar vs.
                      4/7/10      3110          $15
 expense (specify)                                                      Rampart; cafeteria lunch $6.75 & $8.18
                      2/19/09      1049        $133                     Food for board meeting on 1/17/09
                      9/10/09      1013         $57                     Reimbursable for food
                      9/10/09      1011         $63                     Purchased at Perfectly Sweet bakery
                      2/24/10      3073        $430                     Mary’s party rental-other renting expense
                                   Cash
                      2/24/10                  $350                     Payment for taco man
                                withdrawal
                      3/20/10      3143         $5                      Snack
                                              $1,748           $76




                                                          45
 Table E-2: Stipends
                                                                                                 Ineligible
     Date       Check no.             Position                       Description
                                                                                                  amount
  12/22/2009         1114                    Treasurer                   2009 annual stipend            $200
  12/22/2009         1113                    Secretary                   2009 annual stipend            $200
  12/22/2009         1115                    President                   2009 annual stipend            $200
                                                                                      Total             $600


Table E-3: Subscription reimbursements
                                       Unsupported
               Payee                                        Date                   Description
                                         amount
                                                                    Disbursement did not support how the
  Former shareholder: P. Park…….          $12,000        5/5/2011
                                                                    amount was determined.
                                                                    Disbursement did not support how the
  Former shareholders: S. Corona…..       $12,000        5/5/2011
                                                                    amount was determined.
  Total                                   $24,000


Table E-4: Sample disbursements
                                                 Check
    Expense account                Date                     Ineligible    Unreasonable         Unsupported
                                                  no.
Top Notch Management
Salary expense                  2/13/09          N/A                                              $1,600
                                2/28/09          N/A                                              $1,600
Miscellaneous
                                6/11/09          1022                                             $2,000
administrative expense
Grounds contract                 1/9/09          1001                                             $2,000
                                2/10/09          1036                                             $2,000
Maintenance material             7/6/09          1113                                             $1,289
Miscellaneous
                                1/14/09          1005                                             $2,588
maintenance
                                1/17/09          1009                                             $1,691
Telephone services              5/22/09          N/A                                               $692
Miscellaneous expenses          1/14/09          1004                                             $1,264
                                1/14/09          1006                                              $768
Legal fees                       3/2/09          1055                                              $450
Tripod Management
Miscellaneous
                                9/25/09          1030                          $698
administrative expense
                               12/17/09          N/A                           $622
                                4/1/10           3107                                             $1,411


                                                       46
                                      Check
    Expense account          Date              Ineligible   Unreasonable   Unsupported
                                       no.
Payroll expenses             11/4/09   N/A                                   $3,452
                            12/17/09   N/A                                   $3,934
                              9/7/10   N/A                                   $4,078
                             12/3/10   N/A                                   $4,523
                                     Cashier's
Legal & professional fees   11/20/09                                         $20,000
                                      check
                             12/3/09  1107                                   $4,265
                             1/27/10  3032                                   $1,500
                             2/26/10  3091      $1,500
Contract service –
                            9/21/09    1018                                  $2,000
grounds-landscaping
                            2/11/10    3054                                  $2,000
                            4/30/10    3134                                  $2,100
Contract services -
                            10/22/09   2004                                  $2,200
repairs
Telephone services          10/20/09   1048                                   $586
                             12/3/09   1134                                   $513
                             6/18/10   N/A                                    $847
                            10/21/10   N/A                                    $738
Supplies - repair            10/9/09   1061                                  $4,665
                             2/11/10   3080                                   $894
Accounting-auditor fee       2/11/10   3066                                  $6,500
                             4/19/10   3122                                  $3,000
Salaries - maintenance       9/18/09   N/A                                   $1,246
                            10/20/09   N/A                                   $1,250
                             1/20/10   N/A                                    $567
                             1/25/10   N/A                                     $99
Security payroll contract   10/24/09   1077                                  $2,000
Contract service            12/29/09   2019                                   $500
                             1/22/10   3036                                  $1,822
Office supplies               3/8/10   N/A                                    $452
                             4/27/10   N/A                                    $609
Salaries - manager           9/18/09   N/A                                   $1,600
                             10/5/09   N/A                                   $3,674
Office expenses              11/2/09   N/A                                    $694




                                            47
                                                   Check
        Expense account                 Date                    Ineligible    Unreasonable     Unsupported
                                                    no.
    Solari Management
    Operating and
                                      3/31/11      N/A            $150                              $8,169
    maintenance expense
                                                  Subtotal       $1,650            $1,320         $109,828
                                      (less) legal costs**       $1,500
                                                    Total         $150             $1,320         $109,8286
** Note: We excluded the legal costs performed from the total because we reviewed legal costs under finding 1.



     Table E-5: Summary
                                                                             Eligibility
                      Finding issue
                                                     Ineligible           Unreasonable      Unsupported
       Sit-down restaurant meals                      $1,103
       Reimbursable                                    $1,748                                    $76
       Stipends                                          $600
       Subscription reimbursements                                                             $24,000
       Sample disbursements                              $150                 $1,320          $109,828

       Total                                           $3,601                 $1,320          $133,904




6
    Calculation differences are due to rounding.


                                                         48
